<html>
<title> - HEARING ON THE NOMINATION OF HAROLD B. PARKER OF NEW HAMPSHIRE TO BE FEDERAL COCHAIRPERSON OF THE NORTHERN BORDER REGIONAL COMMISSION</title>
<body><pre>[Senate Hearing 115-381]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 115-381

 HEARING ON THE NOMINATION OF HAROLD B. PARKER OF NEW HAMPSHIRE TO BE 
    FEDERAL COCHAIRPERSON OF THE NORTHERN BORDER REGIONAL COMMISSION

=======================================================================

                                HEARING

                               BEFORE THE

                     SUBCOMMITTEE ON TRANSPORTATION
                           AND INFRASTRUCTURE

                                 OF THE

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 6, 2018

                               __________

  Printed for the use of the Committee on Environment and Public Works
  
 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 
  

        Available via the World Wide Web: http://www.govinfo.gov     
        
                  
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
32-678 PDF                  WASHINGTON : 2018                     
          
-----------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="eb8c9b84ab889e989f838e879bc5888486c5">[email&#160;protected]</a>        
        
        

               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                     ONE HUNDRED FIFTEENTH CONGRESS
                             SECOND SESSION

                    JOHN BARRASSO, Wyoming, Chairman
JAMES M. INHOFE, Oklahoma            THOMAS R. CARPER, Delaware, 
SHELLEY MOORE CAPITO, West Virginia      Ranking Member
JOHN BOOZMAN, Arkansas               BENJAMIN L. CARDIN, Maryland
ROGER WICKER, Mississippi            BERNARD SANDERS, Vermont
DEB FISCHER, Nebraska                SHELDON WHITEHOUSE, Rhode Island
JERRY MORAN, Kansas                  JEFF MERKLEY, Oregon
MIKE ROUNDS, South Dakota            KIRSTEN GILLIBRAND, New York
JONI ERNST, Iowa                     CORY A. BOOKER, New Jersey
DAN SULLIVAN, Alaska                 EDWARD J. MARKEY, Massachusetts
RICHARD SHELBY, Alabama              TAMMY DUCKWORTH, Illinois
                                     CHRIS VAN HOLLEN, Maryland

              Richard M. Russell, Majority Staff Director
              Mary Frances Repko, Minority Staff Director
                              
                              
                              ----------                              

           Subcommittee on Transportation and Infrastructure

                  JAMES M. INHOFE, Oklahoma, Chairman
SHELLEY MOORE CAPITO, West Virginia  BENJAMIN L. CARDIN, Maryland, 
JOHN BOOZMAN, Arkansas                   Ranking Member
ROGER WICKER, Mississippi            BERNARD SANDERS, Vermont
DEB FISCHER, Nebraska                SHELDON WHITEHOUSE, Rhode Island
JERRY MORAN, Kansas                  JEFF MERKLEY, Oregon
JONI ERNST, Iowa                     KIRSTEN GILLIBRAND, New York
DAN SULLIVAN, Alaska                 EDWARD J. MARKEY, Massachusetts
RICHARD SHELBY, Alabama              TAMMY DUCKWORTH, Illinois
JOHN BARRASSO, Wyoming (ex officio)  CORY A. BOOKER, New Jersey
                                     THOMAS R. CARPER, Delaware (ex 
                                         officio)

[[Page (iii)]]



                            C O N T E N T S

                              ----------                              
                                                                   Page

                           SEPTEMBER 6, 2018
                           OPENING STATEMENTS

Inhofe, Hon. James M., U.S. Senator from the State of Oklahoma...     1
Cardin, Hon. Benjamin L., U.S. Senator from the State of Maryland     2
Sanders, Hon. Bernard, U.S. Senator from the State of Vermont, 
  prepared statement.............................................    50

                               WITNESSES

Shaheen, Hon. Jeanne, U.S. Senator from the State of New 
  Hampshire......................................................     3
Parker, Harold B., nominee to be Federal Cochairperson of the 
  Northern Border Regional Commission............................     5
    Prepared statement...........................................     8
    Responses to additional questions from:
        Senator Sanders..........................................    12
        Senator Gillibrand.......................................    13
        
        

[[Page (1)]]




 
 HEARING ON THE NOMINATION OF HAROLD B. PARKER OF NEW HAMPSHIRE TO BE 
    FEDERAL COCHAIRPERSON OF THE NORTHERN BORDER REGIONAL COMMISSION

                              ----------                              


                      THURSDAY, SEPTEMBER 6, 2018

                               U.S. Senate,
         Committee on Environment and Public Works,
         Subcommittee on Transportation and Infrastructure,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:02 a.m. in 
room 406, Dirksen Senate Office Building, Hon. James M. Inhofe 
(Chairman of the Subcommittee) presiding.
    Present: Senators Inhofe, Cardin, Boozman, Wicker, Ernst, 
Gillibrand, and Carper.

          OPENING STATEMENT OF HON. JAMES M. INHOFE, 
            U.S. SENATOR FROM THE STATE OF OKLAHOMA

    Senator Inhofe. Our Subcommittee will come to order.
    Let me see the order of things here.
    OK, we are here today to consider the nomination of Harold 
B. Parker--who I haven't seen for 15 years--to be the Cochair 
of the Northern Border Regional Commission.
    Congress authorized the Commission in the 2008 Farm Bill to 
fund economic and community development in Maine, New 
Hampshire, Vermont, and New York. The Commission works to 
direct fund Federal appropriations toward State prioritized 
economic and community development strategies and projects.
    If confirmed, Mr. Parker will be one of five voting members 
of the Commission, to include the Governors of Maine, New 
Hampshire, Vermont, and New York.
    Nominated by President Trump on July 27th, 2018, he 
currently serves as Special Assistant for Intergovernmental 
Affairs to New Hampshire Governor Chris Sununu, focusing on 
issues of trade, security, and the economy. Previously, he has 
served as a long-time congressional staffer for then 
Congressman John Sununu, as well as Congressman Charles Bass.
    Throughout his career, Mr. Parker has developed 
relationships across New Hampshire and Canada, and those 
relationships will serve him well in his role.
    Governor Sununu wrote of Mr. Parker, ``Harold understands 
the need for economic rejuvenation in the northern tier of New 
York, Vermont, New Hampshire, and Maine,'' and ``Mr. Parker has 
worked to spur economic development and has spearheaded New

[[Page 2]]

Hampshire's efforts to attract Canadian business to move over 
the border.''
    Senator Shaheen is here today to introduce the nominee, and 
as I said, we have received letters from both Democrats and 
Republicans attesting to Mr. Parker's qualifications and to his 
character.
    Let's hear, first of all, from Senator Cardin for an 
opening statement, then we will recognize you, Senator Shaheen, 
for an introduction.

         OPENING STATEMENT OF HON. BENJAMIN L. CARDIN, 
            U.S. SENATOR FROM THE STATE OF MARYLAND

    Senator Cardin. Senator Inhofe, first of all, thank you for 
calling this hearing.
    I do want to make an observation. It is normally not this 
quiet on this hallway, but there is something else going on 
today in the Senate on confirmation hearings which has a little 
bit more attention than this nomination hearing.
    But I want Mr. Parker to know that we very much appreciate 
your willingness to serve in this very important position. We 
know there is sacrifice involved in doing this, things that you 
will be doing by being called upon for public service, and we 
thank you for being willing to step forward to serve in this 
very important role.
    Mr. Chairman, I am going to be spending Saturday in the 
western part of Maryland. I mention that because the 
Appalachian Regional Commission, which is a similar commission 
to the Northern Border Regional Commission, has been critically 
important for economic growth in that part of Maryland.
    I will be talking about a STEM program that is going to be 
set up at Garrett College, which is the most further western 
part of our State. The broadband Last Mile Connections has been 
done through that commission and has really given economic hope 
to the people of Western Maryland and the Appalachian region. 
It is a wonderful community, but they need to have economic 
futures for their families to be able to stay and live and work 
in that area, and the Appalachian Regional Commission has been 
a critical partner in making that a reality.
    In the areas that are under the Northern Border Regional 
Commission, you have similar challenges. I applaud those that 
were in the Senate and House that initiated this effort. I know 
Senator Shaheen has been critically involved in that both as 
Governor and as Senator.
    We look forward to hearing your vision as to how this 
Commission can help that region, and I will be asking you 
during the question period how we can learn from the different 
regional commissions that we have in this country. We have 
established one in Alaska; there is one in the Mississippi 
Delta. It seems to me that we should be trying to learn from 
each other.
    The second area that I would mention, Mr. Chairman, is that 
we have not had consistent support from this Administration in 
funding these programs. The Appalachian Regional Commission was 
zeroed out in the last budget by the President. We supported it 
and put the money back in. The President included the funds in 
this budget cycle, but in regards to the Northern Border 
Regional Com

[[Page 3]]

mission it is my understanding the Administration has zeroed 
out the funding.
    We are committed to making sure the funding exists, but it 
is a challenge, I guess, for the leader to figure out how do 
you deal with OMB that hasn't exactly given you the broadest 
support signal by the way they have presented their budget.
    So these are interesting questions I hope we will have a 
chance to get into, but I think you are going to find, Mr. 
Parker, a very supportive Committee in regards to trying to 
give you the tools you need to carry out your very important 
assignment.
    Senator Inhofe. Thank you, Senator Cardin.
    Senator Shaheen, you are recognized for an introduction.

               STATEMENT OF HON. JEANNE SHAHEEN, 
          U.S. SENATOR FROM THE STATE OF NEW HAMPSHIRE

    Senator Shaheen. Thank you very much, Mr. Chairman and 
Ranking Member Cardin and Senator Ernst. It is nice to be here 
with you this morning. I am really pleased to have been asked 
by Harold to introduce him. He has been nominated, as you 
pointed out, to serve as the Federal Cochair of the Northern 
Border Regional Commission.
    I also want to recognize, behind me, Mark Scarano, who is 
his predecessor, who is here to support Harold.
    We have had a bipartisan approach in New Hampshire, and I 
think in Congress, to these commissions, to the Northern Border 
Regional Commission because it has, as you pointed out, Senator 
Cardin, really had a substantial impact on communities in 
northern New Hampshire, Vermont, New York, and Maine in helping 
to create jobs and to support projects that improve the quality 
of life for people in the northern parts of those four northern 
New England and New York States.
    During my time in the Senate, I have seen the NBRC grow 
from an ambitious idea to a multi-million dollar collaboration 
of State and Federal partners that help to assist in job 
training activities and develop much needed public 
infrastructure in the Granite State and in those communities 
throughout the northern forest region.
    As you pointed out, Senator Cardin, there has been an 
effort to zero out funding for the NBRC, as well as some other 
regional commissions, and on the Appropriations Committee we 
have restored that funding and actually increased it in the 
last budget cycle.
    To continue the great work of the Commission, the next 
Federal Cochair must have an extensive knowledge of the region, 
a clear understanding of the challenges it faces, and an 
insight into its potential for growth in the future, and in 
this respect, I believe that Harold Parker is well suited for 
the role.
    Throughout his tenure in State and Federal Government, 
Harold has worked in many capacities that required deep 
engagement with New Hampshire's North Country communities. In 
his current role as Special Assistant to the Governor for 
Intergovernmental Affairs, Harold focuses heavily on issues of 
trade, security, and the economy. Right now he is spearheading 
an effort to craft an economic policy agreement between the 
State of New Hampshire and

[[Page 4]]

the province of Quebec that would promote opportunities for 
businesses in both countries to grow across our international 
border.
    Now, as you pointed out, Senator Inhofe, prior to his work 
with the Governor, Harold served as outreach director in the 
Offices of Congressman Charlie Bass and Congressman and Senator 
John E. Sununu, who is not our current Governor, who is Chris 
Sununu, a brother.
    I got to know Harold in those days when he was working for 
Congressman Sununu and saw his good staff work, and I know that 
his position in both of those offices brought him in close 
contact with communities in the Northern Border Region.
    I must also say that I have had the opportunity, as a 
Senator, to work very closely with Harold on a program that we 
call Law Enforcement Awards in New Hampshire. This is an idea 
that he actually came up with when he was working with 
Congressman Sununu, and it is to recognize law enforcement 
officers in the State who have gone above and beyond the call 
of duty in their role as police officers. It has been a 
bipartisan program that has been very effective in recognizing 
law enforcement in the State of New Hampshire, and he really 
deserves the credit for making that program go.
    So, whether bringing the perspectives of local leaders to 
the Federal level or helping small towns navigate the 
government grant process, Harold has been a dependable advocate 
and resource for the people of New Hampshire.
    He has deep roots in the region covered by the NBRC, and he 
has cultivated bipartisan relationships across State and 
national borders that would be valuable in this position.
    So, I hope that the members of this subcommittee will agree 
with me that his experience and expertise make him well suited 
to serve as Federal Cochair at the NBRC.
    Thank you very much, Mr. Chairman.
    Senator Inhofe. Thank you very much, Senator Shaheen. You 
are welcome to stay and even come up on the dais during the 
proceeds, or if you have scheduling problems, you can be 
excused.
    Senator Shaheen. Yes, I have an Appropriations Committee, 
so I won't go there, but thank you.
    Senator Inhofe. All right. That's good.
    We are anxious to get the opening statement.
    Why don't you come up, if you would.
    There are, however, some required questions that have to be 
asked. I will get those out of the way, then we will hear your 
opening statement, and we will ask questions, all right?
    Mr. Parker. Yes, sir.
    Senator Inhofe. All right. You have to answer these 
audibly, if you would. I have to ask the following questions.
    Do you agree, if confirmed, to appear before this Committee 
or designated members of this Committee, and other appropriate 
committees of Congress, and provide information subject to 
appropriate and necessary security protections with respect to 
your responsibilities?
    Mr. Parker. Yes, sir.
    Senator Inhofe. Do you agree to ensure that testimony, 
briefings, documents, and electronic and other forms of 
information are

[[Page 5]]

provided to this Committee and its staff, and other appropriate 
committees, in a timely manner?
    Mr. Parker. Yes, sir.
    Senator Inhofe. Last, do you know of any matters which you 
may or may not have disclosed that might place you in any 
conflict of interest if you are confirmed?
    Mr. Parker. None that I am aware of, sir.
    Senator Inhofe. All right, Harold, you are recognized for 
an opening statement.
    Mr. Parker. Thank you very much, Mr. Chairman.
    Senator Inhofe. If you want to abbreviate it, feel free to 
do that. Your entire statement will be made a part of the 
record.
    Mr. Parker. I have managed to narrow it down.
    Senator Inhofe. Use your mic there. I don't think you're 
turned on, are you?

     STATEMENT OF HAROLD B. PARKER, NOMINEE TO BE FEDERAL 
    COCHAIRPERSON OF THE NORTHERN BORDER REGIONAL COMMISSION

    Mr. Parker. Chairman Inhofe, Senator Cardin, members of the 
Environment and Public Works Committee, thank you for the 
opportunity to appear before you today to discuss my 
qualifications for the position of Federal Cochair of the 
Northern Border Regional Commission, or the NBRC.
    I would like to start by thanking the President for 
nominating me to this position and to Governor Chris Sununu for 
his recommendation. I would also like to extend my deepest 
thanks to Senator Jeanne Shaheen for introducing me here today. 
I would also like to thank Senator Maggie Hassan and Senator 
John Sununu, and all those who have submitted letters of 
support on my behalf.
    The President's submission of my nomination and my 
appearance here today is one of the great honors of my career 
in public service, a career which includes being a staff member 
for Senator John Sununu in this chamber and 8 years of service 
in the U.S. House of Representatives.
    I grew up in the territory covered by the Northern Border 
Regional Commission. I saw firsthand what happened when the 
pulp and paper economy collapsed and how it devastated entire 
communities and generations of workers and businesses.
    Over the decades since then, I have seen generations of 
dedicated elected officials work to help find economic 
solutions to these communities. We have been through multiple 
new strategies and plans. The result is what we are all 
painfully aware of: there are no easy solutions. The challenge 
we face in these regions is cultural, generational, 
demographic, and most of all, it is complex.
    Providing the leadership and resources to help find a path 
forward for these communities across the four State Northern 
Border Region is exactly what the Commission is tasked with. I 
want to contribute to an agency that has helped the people of 
the region by providing financial resources that have a quick 
and direct impact on the communities by helping increase 
economic diversity across northern New York, Vermont, New 
Hampshire, and Maine, and

[[Page 6]]

working to enable communities in these States to chart a path 
forward of their own choosing.
    I am prepared to focus my passion and my energy to use 
these resources of the Federal Government as a partner to State 
and local decisionmakers as they chart their path forward to 
build communities that represent places where the next 
generation will want to live and work.
    My career brings a vantagepoint that comes from extensive 
experience in public service. When I was right out of 
university, I was a part-time police officer in the town of 
Durham, New Hampshire. During this time, my career in politics 
and public service began by starting to volunteer on 
congressional races.
    I went on to become a staff member during a 1996 
presidential campaign, which led to a position on Congressman 
John E. Sununu's first congressional staff later that year. My 
portfolio started to consolidate around the issues of law 
enforcement, homeland security, New Hampshire-Canadian trade, 
international relations in New England.
    I eventually became Director of the Outreach Program that 
allowed me and other staff members to travel around the State 
and meet with public officials and business owners and 
citizens. It was the Outreach Program that allowed me to gain 
experience with grant research, coalition building on issues, 
and working for communities that needed help.
    From 2011 to 2013 I worked for Congressman Charles F. Bass 
of New Hampshire as Projects Director, which was an in-depth 
experience in dealing with local citizens and businesses 
affected by or seeking help from the Federal Government.
    While I was in Federal service, I also served my hometown 
by being elected to the Planning Board and Budget Committee. It 
was on the Budget Committee where we handled the town's $25 
million a year line item budget that I began to see how, if 
structured correctly, the government could partner with private 
enterprise to make investments that lead to economic growth.
    In 2014 I was elected to the New Hampshire House of 
Representatives, or as we call it in New Hampshire, the General 
Court, where I served on the Executive Departments and 
Administration Committee, Criminal Justice and Public Safety 
Committee, and the Fish and Game Committee. I was also 
appointed to the New Hampshire-Canada Trade Council by the New 
Hampshire Secretary of State and was a representative of the 
New Hampshire House to the Council of State Governments.
    I resigned from the New Hampshire House in January 2017 to 
join the staff of Governor Chris Sununu. I started as Policy 
Advisor and was later promoted to become Special Assistant to 
the Governor for Intergovernmental Affairs. My portfolio has 
been similar to my Federal service, with the added area of 
transportation infrastructure. I am the Governor's 
representative to the Coalition of Northeastern Governors, 
where we work with Eastern Canadian Premiers on interstate and 
cross-border issues of transportation, trade, economic 
development, and the environment.
    I believe in outreach to the governments of eastern Canada, 
our neighbors, and partners of the intertwined economies of the 
Northeast. In the 2008 law that set up the NBRC, crossing the 
inter

[[Page 7]]

national border to advocate for the Commission's region was 
recognized. While doing my research for this position I 
identified gaps in using Canadian contacts and opportunities to 
cross the border that are not being utilized. With Canadian 
companies looking for business opportunities across the border, 
I believe the NBRC should be a partner with its member States 
to explore the possibility for expansion of Canadian companies 
into the Northern Tier, and a regional entity like the NBRC can 
back up those States and make the regional case. It adds a new 
level of diversity to the NBRC portfolio and provides another 
avenue for increasing opportunity and economic diversity for 
the workers of the region.
    I will continue the progress made by my predecessors. My 
goal is to expand economic diversity and leave the Commission 
stronger and ready to face future challenges.
    I truly appreciate the opportunity to appear before you. I 
look forward to answering any questions you may have.
    Thank you, Mr. Chairman and members of the Committee.
    [The prepared statement of Mr. Parker follows:]
    [GRAPHIC] [TIFF OMITTED] T2678.001
    
    [GRAPHIC] [TIFF OMITTED] T2678.002
    
    [GRAPHIC] [TIFF OMITTED] T2678.003
    
    [GRAPHIC] [TIFF OMITTED] T2678.004
    
    [GRAPHIC] [TIFF OMITTED] T2678.005
    
    [GRAPHIC] [TIFF OMITTED] T2678.006
    
    [GRAPHIC] [TIFF OMITTED] T2678.007
    
    Senator Inhofe. Thank you, Mr. Parker.
    We will go ahead with some questions.
    Confession is good for the soul, and I have to tell you 
that I don't really know about this Commission. I remember when 
this took place, but of course, Oklahoma is quite a ways away 
from you guys up in the Northeast, so why don't you just go 
ahead and explain to me what the role of the Northern Border 
Regional Commission is.
    Mr. Parker. The Northern Border Regional Commission is a 
Federal-State partnership that basically does economic 
infrastructure and communications grants or telecommunications 
grants to affected regions across the Northern Border; 
broadband Internet, infrastructure of that we can help grow 
business development parks and direct economic grants in towns 
for business incubators, just as an example.
    It allows a concise and immediate impact by grant funding 
to towns in affected regions to help them out in the more 
economically troubled areas of the region.
    Senator Inhofe. I see. I see. It was stated by both your 
introducer, as well as Senator Cardin, about zeroing out the 
budget for the Northern Border regions. Give us your response 
to that, what your feelings are, and how you can overcome that.
    Mr. Parker. I believe in the work of the NBRC. I believe it 
provides an essential service to the four States affected. It 
helps the regions develop economic diversity, helps stop the 
outflow of migration of workers, and helps trying to make a 
better life for the people who live there.
    If I am confirmed as Federal Cochair, I will continue to 
advocate to help those people out in those positions.
    Senator Inhofe. Well, as you describe the works and the 
function of the Northern Border, in looking at your background, 
you seem to be certainly a right one to be doing this, and I 
look forward to working with you in the future.
    Senator Cardin.
    Mr. Parker. Thank you, Mr. Chairman.

[[Page 8]]

    Senator Cardin. Thank you, Mr. Chairman.
    Mr. Parker, thank you. I think the Chairman's question is 
one that was at least partially responsible for the President's 
team zeroing out your budget; that is, very few people know 
what you do. We had a similar problem with the Appalachian 
Regional Commission. The President zeroed out that budget last 
year. He did not this year. Many of us have put a spotlight on 
the work of the Appalachian Regional Commission.
    As I said in my opening statement, I will be in the western 
part of Maryland Saturday. I will be at Garrett College, which 
is in Garrett County, which is one of our largest geographical 
counties and one of the smallest in population. It is in the 
mountains, and it has had challenges to get any type of 
economic growth.
    Garrett College will have, now, a STEM program, a major 
STEM program, the 2-year community college, and will have 
equipment that will be unique among higher education facilities 
in this country thanks to the Appalachian Regional Commission's 
grant. That will attract and keep students in Garrett College 
from even outside of Garrett County coming in to use the STEM 
facilities that are there.
    It is not the only grant that has been given by the 
Appalachian Regional Commission; they have given a grant to 
Allegheny College, which is also in the Appalachian Region, in 
Cumberland, to establish a STEM program. They have also given 
grants to Frostburg State University, which is also in that 
region.
    I mention all of that because it has been a magnet for 
developing job opportunities for that area. I can mention also, 
as I did earlier, the broadband. We have broadband in Maryland, 
but the connections are very difficult to finance because it is 
not economically feasible for cable companies to connect that 
last mile. The Appalachian Regional Commission in Maryland has 
given grants so that our key facilities, our hospitals, our 
schools, our development centers, are all now connected by 
broadband as a result of the Appalachian Regional Commission.
    I mention all that because I really do think one of your 
challenges is to promote what you do.
    Mr. Parker. Well, Senator, that starts today. Realizing I 
have a 14-year career with Congress. It has been a joy to serve 
this institution. Coming back down to talk to Appropriations, 
to talk to this Committee, to anybody who wants to hear about 
the Northern Borders Regional Commission is one of my jobs. I 
will probably be down here more than people want to see my 
face, sir, to make sure that this Commission is understood, 
what it does, what we can do, and how we can help the people in 
the four States involved, and if that means pounding the 
pavement on Capitol Hill all the time, that is where we start.
    The delegations in those four States know exactly what this 
organization does. I agree with you, it is time to expand 
outwards and make sure that the rest of Congress understands it 
also, sir.
    Senator Cardin. I would suggest that you could get some 
help in doing that through the other three regional commissions 
that have been authorized for funding by the Congress. I 
mentioned Appalachian, but we also have the Delta Regional 
Commission, and you also have Denali Commission in Alaska.

[[Page 9]]

    They have similar functions. They are all different; the 
regions are all different, but they all have the similar 
problem, and that is, until this hearing was called, I only 
knew about the Appalachian Regional Commission. And I am sure 
that those that represent outside the Appalachian Region knew 
very little about the Appalachian Regional Commission.
    I think that if you would reach out to our colleagues from 
Alaska, from the Delta Region, you could magnify the audience 
that may be interested in the work of our commissions.
    Mr. Parker. As you see, I am a typical staffer, Senator; I 
am taking notes on what you are saying, and I will act upon 
them.
    Senator Cardin. Well, I appreciate that. The Chairman asked 
you some required questions at the beginning of the hearing 
that we ask all nominees, and that is to respond to what the 
Committee asks you to do. I think it would be advisable to keep 
the Committee informed as to what you are doing so that our 
staffs are fully aware, as the authorizing committees, to make 
sure that the appropriators understand what you do and that we 
can be more informed if asked by the appropriators or if they 
try to do some things that we do or do not like, and also 
perhaps even to seek additional partnerships if in fact that is 
deserved.
    Working with us in that capacity will further your mission, 
but will also help us carry out our responsibilities.
    Mr. Parker. Thank you, Senator. I would like to extend an 
invitation to any member of this Committee. I would be glad to 
give you a tour of the Northern Border Region, any State you 
would like.
    Senator Cardin. I would like to do that today, considering 
the weather we have here in Washington.
    [Laughter.]
    Mr. Parker. Unfortunately, Senator, I don't think it is 
much different at home right now, from what I heard.
    Senator Cardin. Thank you, Mr. Chairman.
    Senator Inhofe. Thank you.
    We have been joined by Senator Boozman from Arkansas.
    Senator Boozman.
    Senator Boozman. Thank you, Mr. Chairman, and thank you for 
being here, Mr. Parker.
    I think Senator Cardin makes a really very, very good point 
about the different authorities working together. As he pointed 
out, he was familiar with the Appalachian Region. I am very 
familiar with the Delta Regional Authority and have heard of 
Appalachian because that was an early one and was on the 
forefront a lot, but really was not aware of this until we got 
into actually looking through the Committee at it.
    I think the idea of very different regions, but very, very 
similar problems: how do you jumpstart opportunity in these 
areas. So, I think that is an excellent suggestion.
    You mentioned you have a long history of being a staffer, 
working hard, this and that, at the Federal level, local level. 
Tell me how that has prepared you to do a good job in this 
particular role.
    Mr. Parker. Well, Senator, this is what I was doing at 5:30 
this morning, I was working down my work experience because it 
spans

[[Page 10]]

over three decades. It helps me on many reasons: economic 
security agreements is talking with Government; infrastructure 
projects.
    I have been working with the Port of Portsmouth for new 
docks, new fiber optic cable. Local requests to municipalities, 
business incubators, business parks, industrial businesses, 
cities and town; budget. I have a $25 million line item budget 
in my hometown of Wolfeboro, New Hampshire, which is about $5 
million more than what all the NBRC's budget is. I have been 
doing that for 14 years.
    My background in planning, revolving loan funds on the 
Planning Board in Wolfeboro, and congressional background is 
the ability to come here, talk to you Senators, Congressmen, to 
sit there and make the case for this Commission. My background, 
I believe, has prepared me for that, along those lines; my 
experiences. I have written more grant letters; I have gone to 
more meetings; I have dealt with more Federal agencies in 16 
years now that I don't think I can put on one piece of paper, 
sir.
    Senator Boozman. Very good. I appreciate you highlighting 
that because I think that is very, very important also.
    In your testimony, you discussed how your time served on 
your hometown's budget committee and planning board showed you 
how public-private partnerships--the P3s--could lead to 
economic growth. If confirmed, do you plan on looking at 
innovative ways for the Government to partner with private 
enterprise? Certainly, that is something that President Trump, 
all of us are trying--how do you get that done. And how do you 
think public-private partnerships could be helpful to the 
Regional Commission?
    Mr. Parker. Public-private partnerships are the 
encouragement of private development and the Commission is 
enabled in law. In my hometown, public-private partnerships on 
the more municipal level is to help build new ski areas, new 
libraries. It is town-funded, business-funded, and civilian-
funded.
    I believe, in the Northern Border Regional Commission, the 
more we can bring private business in either from outside of 
the region, on our side of the border or from Canada, I see a 
business coming in, they need to train their work force. The 
NBRC has the ability to train, through funding, a work force, 
work hand in hand with the business to set up the type of 
workers they would like to have trained.
    A great example of this is transportation and 
infrastructure or transportation aircraft businesses. 
Bombardier in Quebec is coming over the border a lot to set up 
American operations. They look at the Northern Tier because of 
its close aspect, obviously, to Quebec. Our ability is to talk 
to a company like that. Let's set up a partnership. You come 
down, we will help you train workers, we will increase the 
workload for the area or increase the worker retention in the 
area, along those lines. I can see the Commission doing that, 
sir.
    Senator Boozman. Very good.
    Thank you, Mr. Chairman.
    Mr. Parker. I hope to God I didn't lose part of your 
question in that answer, sir.
    Senator Boozman. No, no, no. You know, those things are so 
important. With limited resources and things, that has to be 
the fu

[[Page 11]]

ture. There has to be a lot more joining together so that we 
can get some of these things accomplished.
    Senator Cardin mentioned broadband, things like that, all 
these things. Hopefully, that would be something that, again, 
the commissions talking could put forth some best practices and 
share amongst you all, and then hopefully come forward with how 
we can get this done in other ways, utilizing other authorities 
to just do the best job that we can.
    Mr. Parker. Yes, sir.
    Senator Boozman. Thank you, Mr. Chairman.
    Senator Inhofe. Thank you, Senator Boozman.
    I have 10 letters from leadership throughout the area that 
we are addressing that. In addition to that, letters from 
places in Quebec, outside of the United States. All of these 
are support letters for you. Without objection, I will make 
them a part of the record.
    [The referenced information follows:]
    [GRAPHIC] [TIFF OMITTED] T2678.008
    
    [GRAPHIC] [TIFF OMITTED] T2678.009
    
    [GRAPHIC] [TIFF OMITTED] T2678.010
    
    [GRAPHIC] [TIFF OMITTED] T2678.011
    
    [GRAPHIC] [TIFF OMITTED] T2678.012
    
    [GRAPHIC] [TIFF OMITTED] T2678.013
    
    [GRAPHIC] [TIFF OMITTED] T2678.014
    
    [GRAPHIC] [TIFF OMITTED] T2678.015
    
    [GRAPHIC] [TIFF OMITTED] T2678.016
    
    [GRAPHIC] [TIFF OMITTED] T2678.017
    
    [GRAPHIC] [TIFF OMITTED] T2678.018
    
    [GRAPHIC] [TIFF OMITTED] T2678.019
    
    [GRAPHIC] [TIFF OMITTED] T2678.020
    
    [GRAPHIC] [TIFF OMITTED] T2678.021
    
    [GRAPHIC] [TIFF OMITTED] T2678.022
    
    [GRAPHIC] [TIFF OMITTED] T2678.023
    
    [GRAPHIC] [TIFF OMITTED] T2678.024
    
    [GRAPHIC] [TIFF OMITTED] T2678.025
    
    [GRAPHIC] [TIFF OMITTED] T2678.026
    
    [GRAPHIC] [TIFF OMITTED] T2678.027
    
    [GRAPHIC] [TIFF OMITTED] T2678.028
    
    [GRAPHIC] [TIFF OMITTED] T2678.029
    
    Senator Inhofe. Senator Cardin.
    Senator Cardin. No objection.
    Could I just ask Mr. Parker, how do you interact with 
Canada? Do they have a regional commission, or is it strictly 
through the province governments, or is it through the national 
government?
    Mr. Parker. Actually, many different levels, Senator.
    Senator Cardin. They don't have a regional commission, I 
assume?
    Mr. Parker. No, but as part of the Northeastern Governors, 
we deal with the Eastern Canadian Premiers. We have our yearly 
conference. This year it was in Stowe, Vermont, where, as I 
said in my testimony, we talked about economic, transportation, 
infrastructure, along those lines.
    The difference between us and Canada, as you well know, 
Senator, is that the bulk of their population and industry is 
probably within 100 miles of the U.S. border, so the economic 
setup is a little bit different going across that tier.
    In my own experience, a lot of State to State work, New 
Hampshire to Quebec, New Hampshire to Ontario, New Hampshire to 
New Brunswick, and through these missions on behalf of my 
Governor there is a lot of trade out there. There is a lot of 
business coming back and forth across the border. Three of the 
four States in the Regional Commission are top exporters to 
Canada. For some reason, New Hampshire is not. I don't know 
why. But four States are top importers from Canada.
    What we have found is that when I went over the border with 
the Governor to Montreal last year, in our first trade mission, 
they have the big concept of trade. They don't know what the 
individual States can do for them, which brings me back around 
to the Northern Borders Regional Commission. In partnership 
with the States in this Commission, I think we can make a 
clearer case of what these--each State is different and unique, 
and we also have the same problems, but we can sit there and 
bring forward added opportunities, an added voice, if you want 
to expand to the United States, come talk to us; there are ways 
we can help you.
    And the beauty of it is, when I am working for my State, I 
am always running across Vermont, or I am always running across

[[Page 12]]

New York, or I am always running across Maine and Quebec or 
Ontario, so we are all actively pursuing. But I think each 
State has a regional asset that we can advertise to Canada, and 
I think the NBRC can help advocate for the individual member 
States.
    Senator Cardin. Thank you.
    Thank you, Mr. Chairman.
    Senator Inhofe. Thank you.
    Are there other questions?
    If there are no other questions, we have members who may 
submit follow up written questions for the record by noon.
    [Discussion off the record.]
    Senator Inhofe. I was told that Senator Carper--normally, 
when they say they are on their way, that means the 14th Street 
Bridge. We will wait for a few minutes, but it can't be too 
long because we have another Committee hearing.
    Senator Cardin. I will ask another question, then.
    Senator Inhofe. Let me go ahead and get this requirement 
out of the way here.
    We are actually going to keep the record open until noon, 
Monday, September 10th, and then you, as the nominee, should 
respond to those questions by 5:00 on Thursday, the 13th. As 
long as you will agree to do that, everything will be fine.
    You are recognized, Senator Cardin.
    Senator Cardin. I should point out that Senator Carper of 
Delaware is having their primary elections today, so it is 
understandable. Senator Carper does commute from Delaware, 
following the tradition of Senator Biden.
    What I wanted to point out by the question in regards to 
what Canada does is that whether there are ways that we can 
facilitate your authority to help in dealing with the region 
with Canada. There may be ways in which we, through our 
mechanisms, can help you with giving you more authority to deal 
with some of the intercountry issues.
    Obviously, there are a lot of major issues between Canada 
and the United States today, we recognize that, in which our 
agencies will maintain their authority, but we may be able to 
help you deal with your regional economic issues by giving you 
greater parity with your counterparts in Canada. That was the 
reason I asked the question.
    I would appreciate it if you could just, during your time, 
get back to us if there are things we can do to help you.
    Mr. Parker. I would be glad to do that, Senator.
    Senator Cardin. Thank you.
    Senator Inhofe. And we have been joined by Senator 
Gillibrand.
    Senator Gillibrand. Mr. Parker, thank you for being here. 
The Northern Border Regional Commission has invested more than 
$57.6 million in Federal funds in some of the most distressed 
areas in New York State's Northern Border Region. This funding 
has supported critical initiatives to improve access to 
essential services like high speed Internet and safe drinking 
water, as well as to support the launch of new businesses and 
growth of existing businesses.

[[Page 13]]

    The Commission has done similar work across other Northern 
Border States, helping economically distressed communities 
create good paying jobs based on local needs and strategies.
    Congress has recognized the need for increasing funding for 
the Commission's effort, with the agency now funded at $15 
million annually, up from $10 million in fiscal year 2017.
    Despite all of this, President Trump's past two budgets 
have called for the elimination of the Commission.
    Do we have your commitment today to advocate for continued 
and robust funding for this vital agency?
    Mr. Parker. Senator, I will do my job as Federal Cochair to 
help the people involved in the region to make the case for why 
this Northern Borders is important to the region. The final 
authority on what happens to the Northern Borders Regional 
Commission is done by the authority and funding of the U.S. 
Congress. In my time there, I will do everything I can to make 
it a successful organization.
    Senator Gillibrand. Well, I would urge you to come to the 
North Country and see how these funds are actually being used 
so effectively, so when you do have a chance to advocate within 
the Administration you can give real examples of what you have 
seen with your own eyes. So I welcome you. And the North 
Country is beautiful in the fall; you have all the foliage, so 
you must come.
    Mr. Parker. Senator, I actually want to go to New York 
first, if I am blessed to be confirmed. I know New Hampshire, 
Maine well, Vermont well; New York I need to go to and see.
    Senator Gillibrand. We would welcome you, and we can 
coordinate your visit.
    Related, what are your views on the Federal Government's 
role in supporting economic development efforts in distressed 
regions?
    Mr. Parker. I wouldn't be here today, Senator, if I didn't 
believe in the Federal Government that we can help individuals 
through direct impact grants to communities and regions 
involved.
    Senator Gillibrand. Do you think the Federal Government 
could do more than what it is already doing today?
    Mr. Parker. Once again, Senator, that is up to the will and 
the authority and the funding of the U.S. Congress.
    Senator Gillibrand. But if asked your opinion, what would 
your opinion be?
    Mr. Parker. Just that right there, ma'am.
    Senator Gillibrand. Do you think you could invest more, 
though?
    Mr. Parker. Depends on the size of the territory. I mean, 
if the Northern Borders increases, you have to be conscious of 
the budgetary side, too.
    Senator Gillibrand. I can give you an example. I think 
getting access to the Internet should be a basic human right. I 
think it is hard for businesses to succeed if they can't sell 
their products or services throughout a community, throughout 
the world. So, one of the challenges we have in the North 
Country is access to rural broadband, because it is not 
economic for a Verizon or another provider to actually provide 
services. So, the reason why we use a lot of the funds toward 
economic development for rural broadband is because we want the 
economy to grow. You can't put in a new

[[Page 14]]

hotel, you can't put in a new hospital, you can't put in a new 
business if you don't have access to the Internet. That is the 
truth of the matter.
    So, I would like you to see these communities, see what is 
working already, get an idea about where they would like to 
grow, and see why more funding for rural broadband is win-win-
win for the Federal Government, because more people will pay 
more taxes, but good for the United States, we are more 
competitive, we sell more aggressively worldwide, and we have a 
stronger economy.
    So, I think, if you take the time to come, you will see how 
some of this funding actually is used locally very effectively, 
and you will see that there is no economic case to be made for 
a private provider to actually provide it. There might only be 
1,000 families living in an area, but there might be five major 
businesses that could continue to grow if they had access. So 
that is the whole nub.
    So, I would like you to come, see it for yourself so, when 
you are in the room to negotiate, to advocate, to say, you 
know, this is not wasted money and I know of places where you 
could certainly use more. That is useful and important for the 
long-term health and well-being of the country and the economy. 
So, I would like you to realize that your position can be one 
of advocacy, not just do what you are told.
    Mr. Parker. Senator, I have the honor of meeting with 
members of your staff, I believe, at 3:00 this afternoon, and I 
will set up a visit time with them over the next couple weeks.
    Senator Gillibrand. Great. Wonderful.
    Next issue. One of the Northern Border Regional 
Commission's greatest strengths is its flexible portfolio of 
programs and ability to work with other Federal, State, and 
local agencies to respond quickly to disruptions across 
industries or the threat of mass layoffs from a plant closure 
and to make the kind of investments necessary to revive 
distressed communities.
    What actions will you take or will you ask Congress to help 
you with to increase the coordination and impact of investment 
by the Commission and other related Federal economic 
development agencies in our most economically struggling 
communities?
    Mr. Parker. Senator, it is a great question. Can I get back 
to you with an answer on that? I would like to look into it a 
little bit more in depth.
    Senator Gillibrand. That would be fantastic.
    And probably related is what would you propose the 
Commission do to increase its ability to respond rapidly to 
economic disruptions in dislocations.
    The reason why I ask this specifically is, because of some 
of these global trade wars, we have seen the price of steel 
collapse; we have seen some of our manufacturing plants have to 
shutter its doors. We are seeing it rapidly throughout the 
North Country. I have seen it with our historic production of 
steel and paper.
    So, it is important to know that as the Administration goes 
up and down on trade, it has real world consequences, and one 
of them, sadly, is a lot of businesses are struggling. So, 
being flexible and being able to rapidly respond I think is a 
really important role for you personally, but also for the 
agency that you hope to run, because I think that would be the 
real gift to a community like

[[Page 15]]

mine for when there is going to be a big business that is going 
to shutter its doors, go overseas, lay off employees, the 
flexibility of what is the best economic development plan and 
getting resources to support it.
    Last point that you can also submit for the record is what 
role do you see entrepreneurship playing in the revival of 
distressed communities, and how can the Commission support that 
work. So, entrepreneurialism, innovation, respond rapidly to 
the disruptions, and the ways that your Commission can 
facilitate coordination.
    Mr. Parker. Got it.
    Senator Gillibrand. Thank you so much.
    Thank you, Mr. Chairman.
    Senator Inhofe. Yes, thank you, Senator Gillibrand.
    Are there other questions, others who want to be heard?
    [Discussion off the record.]
    Senator Inhofe. Mr. Parker, if you want to relive our 
experience of 15 years ago, this will be a good time to do it.
    Mr. Parker. It was a dusty fairground outside of Oklahoma 
City. I was out there working for Candidate Coburn at the time. 
Gave a great speech. Don't ask me, after 14 or 15 years, I 
can't remember, but----
    Senator Inhofe. You are saying I made a great speech 15 
years ago?
    Mr. Parker. You made a great speech.
    Senator Inhofe. That was the last great speech I made, as a 
matter of fact.
    Mr. Parker. That is not my judgment to make that call, 
Senator. I just remember I was so surprised by Oklahoma, going 
out on deployment. The Wichita Mountains; Altus, as it was 
drilled into my head for the proper pronunciation, down in the 
southwest corner; just going around the State. People were 
friendly and welcoming. Never forgot it.
    Senator Inhofe. It is interesting. Altus is what you were 
trying to think of. I will be there tonight.
    Mr. Parker. Oh, really?
    Senator Inhofe. Yes. We have an annual event in Altus, and 
it happens to take place at this time.
    Mr. Parker. We had someone from Senator Nichols' staff who 
really drilled the proper pronunciation of that town into our 
head. Because everybody from the Northeast was doing it wrong.
    Senator Inhofe. That is right. They normally do. And that 
doesn't go unnoticed.
    Mr. Parker. I found out after the bus ride.
    Senator Cardin. Let me join in on this conversation.
    I heard you mention that one of your responsibilities has 
been dealing with some of the ski resorts that are in this 
region. I mention that because in Western Maryland we have the 
Wisp Resort, which is located in the Appalachian Regional 
Commission, and it is, I would say, an underutilized economic 
tool for the region. It is important, but it could be even 
stronger.
    There has been some change of ownership, and they are 
trying to redevelop, and they are doing some good things there, 
but one thing about mountain areas, mountain areas are 
challenged to get there because of the terrain, but does have 
one of the advantages

[[Page 16]]

in regards to its weather. It allows you to do things that 
people are attracted to, such as skiing.
    So, it is one area where I think, again, there could be a 
relationship between the Commission that you have been 
nominated to and the Appalachian Regional Commission that has 
these facilities. In West Virginia there are also significant 
ski resorts that are doing well.
    Mr. Parker. Well, the ski areas I worked for--I was in the 
private sector at the time, but our biggest challenge actually 
was electricity costs. When I worked at Waterville Valley for 
the then CEO, now Governor of New Hampshire, the electric bills 
were probably over $1 million a month just in snow making and 
other areas, so it is a challenge.
    They are also a great attraction all across the Northern 
Tier. A lot of our competition actually comes from southern 
Canada, especially in Quebec, the mountains right across the 
border, but overall it has been a thriving industry again, the 
last decade and a half to two decades. It takes its ups and 
downs.
    Senator Cardin. One of our advantages in Western Maryland 
is that we have Deep Creek Lake, which gives us water, so we 
have plenty of water. Also we have Deep Creek Lake, which makes 
it a four season for recreation; not just skiing, but the 
boating in the summer, and of course, the foliage in the fall 
that we have already talked about, is incredible. So, we have 
all four seasons that we can take advantage of for recreation.
    We also have the C&O Canal National Park, which is one of 
the most popular national parks. So, there are different areas 
that we can attract to try to make it four seasons on visitors.
    The same thing is true up in upper State New York, Vermont, 
New Hampshire, and Maine. There are similarities that you can 
build on.
    Mr. Parker. And I look forward to talking to, obviously--I 
am going to reach out to the other commissions just to see what 
worked, what didn't work, what has been done well, what 
mistakes to avoid, and the institutionology.
    The other thing about the Northern Border Regional 
Commission, I am working with economic experts from four 
States, along with my staff--or potentially my staff--and there 
is a lot of input. I actually sat in on the last NBRC meeting 
in Hanover, New Hampshire 2 weeks ago, and it was very 
congenial, very easy; a lot of issues were talked about. There 
was a lot of wisdom in that room. Not everybody agreed on 
everything, but it was well thought out, well argued, and 
finally, consensus was reached to move forward.
    There is a lot of fallback in this position, if I get 
confirmed, to grow into and get more wisdom coming from the 
people who are there already.
    Senator Cardin. Mr. Chairman, I will relay a story that I 
was told about one of our Senators who asked that the vote be 
held open so that he could make that vote. It was the late 
Senator Ted Kennedy who said he is at the airport; would they 
hold the vote until he got here, and they said certainly they 
would do that. He was at the Boston airport.
    [Laughter.]

[[Page 17]]

    Senator Cardin. So, I am sure Senator Carper is close by.
    One of the great things--both Senator Inhofe and I started 
in the House of Representatives. We were just relating to 
Senator Kyl, who was sworn in yesterday; the three of us 
started the same year. Nineteen eighty-seven was our first year 
in the House of Representatives, so we all have gotten our 
beginning in the House.
    We know in the House that if a Congressman was 10 seconds 
late, they would probably be shut out. There was not a lot of 
leeway and courtesy in the House, and one of the things I think 
I like about the Senate is the fact that there is great respect 
for all members of the U.S. Senate. We recognize that we have 
demands on our time that can make it difficult for us to be 
where we want to be, and the courtesies are almost always 
extended in the Senate, and that is one of the things I 
appreciate.
    Mr. Chairman, I appreciate your patience for Senator 
Carper.
    Mr. Parker. I have a very comfortable chair, so I am quite 
relaxed right now.
    Senator Inhofe. Well, here he is, Senator Carper.
    All right, Tom, the first question comes from me. How is 
your day going?
    Senator Carper. So far so good, but it is early.
    Senator Inhofe. We have had a good hearing and had fairly 
good participation considering what is going on elsewhere in 
here, but we have had a chance to know Harold Parker well. We 
will just recognize you to ask any questions you like and make 
any comments.
    Senator Carper. My thanks to you and our Ranking Member, 
Mr. Chairman, and to Mr. Parker.
    Tell me just a little bit about your background, if you 
would, the elevator introduction. I know a little bit, but just 
go ahead in your words.
    Mr. Parker. Well, I was born in Massachusetts, pretty much 
grew up in New Hampshire, lived my life in Wolfeboro, small 
town on Lake Winnipesaukee. One of my neighbors a couple miles 
away is Mitt Romney.
    I have been in government service in one form or another--
--
    Senator Carper. I understand Mitt Romney is running to join 
us. Is that true?
    Mr. Parker. I didn't hear you.
    Senator Carper. I think he has an interest in maybe coming 
and serving here in Washington.
    Mr. Parker. I heard the rumor, sir.
    Senator Carper. Yes. I heard he might be successful.
    Mr. Parker. Yes, could be.
    So long career in public service in various different 
forms, in the U.S. House, in the U.S. Senate as a staffer. I 
was elected to the New Hampshire House of Representatives twice 
from my hometown.
    Senator Carper. How many members of your State legislature 
are there?
    Mr. Parker. It is a very easily manageable 400 members, 
sir. When I get elected, I literally just represent a town. 
Actually, half of my town.

[[Page 18]]

    Senator Carper. And how many Senators do you have in your 
State?
    Mr. Parker. Twenty-four.
    Senator Carper. Twenty-four. I can't imagine what it is 
like. So, you served two terms there?
    Mr. Parker. I served a term and about 2 months into the 
second term, where I resigned to join Governor Sununu's staff 
as a policy advisor.
    Senator Carper. And when was that?
    Mr. Parker. January 2017, sir.
    Senator Carper. OK. And tell us about your work as a policy 
advisor.
    Mr. Parker. Well, I got promoted to the Governor--I am the 
Special Assistant to the Governor for Intergovernmental 
Affairs, but I still kept my policy portfolio. I did New 
Hampshire Department of Transportation, New Hampshire 
Department of Safety, New Hampshire Fish and Game Commission, 
New Hampshire Canadian Trade Council, Fire and Emergency 
Services in New Hampshire. Basically, those are the issue areas 
I worked on for the Governor.
    There were four of us on the policy team. We roughly had a 
responsibility of a quarter of a State government each.
    Senator Carper. OK. One of the things that I focus on as 
Governor myself and as a Congressman, certainly as a Senator, I 
focus on how do we create a more nurturing environment for job 
creation and job preservation. Folks in our businesses, mayors, 
Governors, Presidents, we don't create jobs; we help by 
creating a nurturing environment for job creation and job 
preservation.
    Would you just talk with us a little about your experience 
and how it helps prepare you to better ensure that that happens 
through this Commission?
    Mr. Parker. The one thing I really, really have admired 
about the NBRC over the years is two things: its direct 
economic grant impacts on the communities and towns involved, 
and two, as I stated--but I know you weren't here, sir--as I 
stated, I watched the pulp and paper industry collapse in the 
Northern Tier of the Northeast. There was too much 
concentration on one industry, throwing tourism aside for a 
second.
    What I like about the NBRC is its diversity; it is to find 
new ways to diversify the economy out where we are not set 
forward in one area under one condition. And with the State 
Cochairs of this Commission, the local connection is not lost, 
because a lot of these solutions are coming up from the town, 
whether it be an incubator or a project or increase in a 
business park. To sit there and help them do that I believe is 
the way to increase diversity or give that nurturing for the 
business that you are addressing, sir.
    Senator Carper. Would you talk with us a little bit about 
the communication that takes place between the various 
commissions, including this one, and how do the commissions 
coordinate and collaborate with one another, if at all?
    Mr. Parker. Are you talking about the other regional 
commissions?
    Senator Carper. Yes.

[[Page 19]]

    Mr. Parker. The NBRC actually, if I remember correctly, 
they have twice a year meetings with other members where they 
share ideas and practices and experiences among each other. I 
have not experienced any of that.
    Right now I have been more focused on the NBRC directly 
when it involves the States. It is something that, as we 
discussed earlier and Senator Cardin mentioned, too, as a new 
chair, if I am confirmed, is to go out, reach out to them, and 
learn best practices and the history of what is successful and 
what hasn't been successful with them.
    Senator Carper. Good.
    Mr. Parker. There is a good level of communication, from 
what I have been told by the previous Federal Cochair, who is 
sitting behind me.
    Senator Carper. Who is that person?
    Mr. Parker. Mark Scarano is the previous Federal Cochair of 
the Northern Border Regional Commission.
    Senator Carper. I just want to say this is the smallest 
audience I have ever observed as a confirmation hearing, which 
is actually a good thing.
    Senator Cardin. We could move this up to the confirmation 
hearing on Kavanaugh.
    Senator Carper. That is a little more contentious.
    Mr. Parker. I am actually enjoying this.
    Senator Carper. Well, good. Well, we won't hold you too 
much longer.
    One of the things we had in the National Governors 
Association was the Center for Best Practices, a clearinghouse 
for good ideas, and it was an opportunity for us to learn from 
other States what was working, what wasn't. That is called the 
Center for Best Practices within the NGA. We were always 
stealing good ideas from other Governors, other States, and 
letting them steal our good ideas, too, and our bad ideas, as 
well.
    You touched on this just now, but how would you go about 
reaching out to the other commissions and say what are you 
doing about this or what are you doing about that? How would 
you do that? Or maybe there is already a way to do so?
    Mr. Parker. Outside of the twice annual meetings, a phone 
call, sir. If confirmed, I would call my counterparts in the 
other commissions, talk to them, tell them what the situation 
is and what is going on in the NBRC. I would actually, 
hopefully, use them as a resource to say have you faced this 
problem, have you faced that problem? What have you done that 
has been successful?
    I built my whole career in public service on talking and 
collaborating with other folks with different points of view or 
different experiences, and it won't stop at this position. It 
is a matter as simple as me reaching out and picking up the 
phone and calling them.
    Senator Carper. Good, good, good.
    Do I have time for one more?
    Senator Inhofe. Sure.
    Senator Carper. Thank you very much.
    The Northern Border Regional Commission reauthorization 
bill is currently part of the Farm Bill that has passed the 
Senate, as you know. I would just ask have you had a chance to 
look over that

[[Page 20]]

legislation, the Farm Bill legislation, the reauthorization for 
the Northern Border Regional Commission? Do you support that 
legislation? Are there some improvements that you would have us 
take?
    Mr. Parker. I haven't had a chance to look at the current 
legislation, Senator. I would like to take a look at it. If you 
have a specific question on it, I would love to get back to you 
on it.
    Senator Carper. All right, good. Thanks.
    Well, good luck. We appreciate all of your service and your 
willingness to take this on as well. Thank you.
    And thanks to my colleagues for making sure I had a chance 
to ask some questions.
    Senator Inhofe. Well, we understand you have a busy day.
    Senator Carper. It is.
    Senator Inhofe. Thank you, Senator Carper.
    Are there further questions? If not, we are adjourned.
    [Whereupon, at 11 a.m. the Subcommittee was adjourned.]
    [An additional statement submitted for the record follows:]

                  Statement of Hon. Bernard Sanders, 
                 U.S. Senator from the State of Vermont

    Too often, rural America has been left behind when it comes 
to economic development. That is why the resources provided 
through the Northern Border Regional Commission are so 
important. The projects funded through the Commission--in areas 
ranging from business development to infrastructure 
improvement--have had significant and positive economic and 
social benefits throughout some of the most economically 
challenged regions of our State.
    At a time when many families in Vermont and throughout the 
Northern Border region are struggling to make ends meet, and 
when the President has proposed eliminating the NBRC and 
gutting community development programs, it is more important 
than ever that the Commission's Federal Co-chair be a strong 
advocate for the communities that desperately need these 
investments. If confirmed, I look forward to working with Mr. 
Parker to ensure this successful Federal-State partnership 
continues to provide critical funding for innovative projects 
in northern Vermont.

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
